      NATIONAL CREDIT UNION ADMINISTRATION

               OFFICE OF INSPECTOR GENERAL


               NCUA’s Risk-Focused Examinations 

                Tracking Identified Documents of 

                Resolution (DOR) Survey Report 



               Report #OIG-07-06         July 10, 2007




                          William A. DeSarno
                          Inspector General



Released By:                                   Auditor-in-Charge:



James W. Hagen                                 Dwight B. Engelrup, CPA
Assistant Inspector General for Audits         Senior Auditor
                     TABLE OF CONTENTS 

                                           Page


EXECUTIVE SUMMARY                           1


BACKGROUND                                  3

PURPOSE AND OBJECTIVES                      4


SCOPE AND METHODOLOGY                       4


RESULTS                                     5


APPENDIX A – MANAGEMENT COMMENTS            8





                             i
                                     EXECUTIVE SUMMARY


In its Strategic Plan (2006-2011), the National Credit Union Administration (NCUA) states as its
first strategic goal (Goal 1) “A safe, sound and healthy credit union system.” Goal 1 stems from
the premise that a safe, sound and healthy credit union system, as part of the national economic
structure, is necessary to stabilize the credit structure of the United States. Because of the
importance of this goal, in 2006 the NCUA Office of Inspector General (OIG) conducted a
review of the risk focused examination (RFE) process at NCUA (report # OIG-06-08). The RFE
process is a key tool used by examiners in achieving Goal 1. As a result of the 2006 review, the
OIG provided one recommendation to the agency regarding Documents of Resolution (DOR),
with which the agency agreed.1 This survey report follows-up on our prior RFE review.
Specifically, we evaluated the process in place to identify, track and correct deficiencies
identified by examiners in DOR during supervision and examination contacts at Federal credit
unions (FCUs).2

We reviewed a judgmental sample of 25 FCUs, five credit unions from each of the five NCUA
regions that had at least one outstanding (open) DOR. We concluded that for the 25 DORs we
sampled, NCUA examiners were monitoring in a timely manner the progress of the FCUs to
address and resolve the deficiencies noted in the DOR. We based our conclusion upon reviews
of examiner work papers and NCUA monitoring reports.

We also reviewed a judgmental sample of 25 FCUs —again, five credit unions from each of the
five NCUA regions-- with at least one closed or resolved DOR. Based on this sample, we found
that in 23 of the 25 instances, FCUs closed the DOR in accordance with the DOR resolution
date. In one case, the DOR was no longer applicable and, one DOR was not closed in
accordance with the resolution date. The number of months between problem identification and
closure of the DOR was approximately ten months. We based our conclusion upon reviews of
examiner work papers and NCUA monitoring reports.

The NCUA Office of Examination and Insurance (E&I) informed us that the agency had
developed and implemented a national tool for monitoring contact and DOR information called
the AIRES Exam Management Console – Online. Additionally, E & I was in the process of
developing, testing, and implementing five on-line DOR monitoring reports that will work
outside of the AIRES system.

Based on information we received about agency work in progress for supervision contacts and
DOR monitoring, and the results of our review to date, the OIG does not have recommendations
to the agency for improvement at this time. We may revisit this area in the future to assess the
additional controls being implemented by the new on-line management tools.

1
  Specifically, the recommendation stated as follows: “NCUA should clarify examiner guidance regarding the
assignment of CAMEL1 composite ratings in relation to the development of Documents of Resolution for Federal
Credit Unions.” In agreeing with this recommendation, the Office of Examination and Insurance indicated that it
was in the process of drafting a revision to the CAMEL Rating System Letter to Credit Unions that would
significantly update the process.
2
  For purposes of this review, we sampled only federally regulated/insured credit unions; our review did not
encompass state regulated credit unions.

                                                        1

We have reviewed management comments and incorporated where appropriate in the report.
The entire management response can be found in appendix A of this report.




                                            2

                                      BACKGROUND


NCUA’s mission is to “facilitate the availability of credit union services to all eligible
consumers, especially those of modest means, through a regulatory environment that fosters a
safe and sound credit union system.” Among the outcomes NCUA hopes to achieve through
realization of Goal 1 is effective risk management. Effective risk management involves
identifying, measuring, monitoring and controlling risks. The agency has identified seven key
risk areas: credit; interest rate; liquidity; transaction; compliance; strategic; and reputation.
Accordingly, NCUA must be prepared to align resources, processes, and tools with identified
risks, as well as enhance planning for future risks. Ensuring effective risk-focused supervision
also requires an adequate framework to document decisions about risk. Examiners use the DOR
to outline plans and agreements reached with officials to reduce identified areas of unacceptable
risk. The DOR identifies persons responsible for managing the risk category and documents
timeframes for correction.

There are 8,400 federally insured credit unions with insured shares of $534 billion. Included in
the totals are 5,200 FCUs, with insured shares of $296 billion. Low to moderate risk credit
unions, as identified by CAMEL ratings 1, 2 and 3, represent 99 percent of the insured shares
and 97 percent of insured credit unions. Problem case credit unions, as identified by CAMEL
ratings 4 and 5, represent one percent of the insured shares and three percent of insured credit
unions.


                                 NCUA-Issued DOR Guidance

NCUA has issued guidance to staff for use in addressing risks and preparing plans for action.
This guidance is found primarily in the following chapters of the NCUA Examiners Guide:
Chapter 1 (Risk Focused Program); Chapter 2 (Scope Development and Planning); Chapter 3
(Total Analysis Process); Chapter 20 (Report Writing); Chapter 21 (Joint Conference and Exit
Meeting); Chapter 22 (Examination Evaluation and Review Policy); and Chapter 30
(Administrative Actions). Additional guidance is available in respective NCUA regional
supervision and examination manuals.




                                                3

                            PURPOSE AND OBJECTIVES



As stated above, NCUA Strategic Goal 1 is a safe, sound and healthy credit union system. The
NCUA Annual Performance Budget 2007 reports that resources are allocated proportional to
existing and merging risks based on their potential impact on goal achievement. The agency
allocates by far the most resources to Strategic Goal 1. Due to the importance of Strategic Goal
1 and the extent to which agency resources are committed to achieve that goal, the NCUA OIG
performed a 2006 review entitled “NCUA’s Risk Focused Examination Process for Federal
Credit Unions” (Report #OIG-06-08). As a follow-up to that report, the OIG performed this
review to evaluate the following: (1) the process examiners use to track deficiencies identified
and documented in the DOR during FCU examinations; (2) the process examiners use to follow-
up on the deficiencies identified in the DOR; and (3) whether examiners are ensuring that FCUs
follow-up and resolve deficiencies documented in the DOR in a timely manner.



                           SCOPE AND METHODOLOGY


Our review of “NCUA’s Risk-Focused Examinations Tracking Identified Documents of
Resolution (DOR)” looked at DORs produced in 2006 and early 2007.

To meet our survey objectives we:

   1.	 Identified and performed limited review of NCUA DOR guidance;
   2.	 Interviewed certain NCUA E&I staff members; and
   3.	 Identified and selected for review two samples of DOR (25 open DOR and 25 closed or
       resolved DOR).

This survey was performed in accordance with Generally Accepted Government Auditing
Standards.




                                               4

                                          RESULTS


                                     NCUA DOR Guidance

This survey work was preparatory to performing an audit in this area. We focused on two key
areas in the guidance: (1) examiner preparation of DOR to reduce areas of unacceptable risk;
and (2) subsequent monitoring and follow-up to ensure FCUs were progressing in their efforts to
correct previously identified risk areas. We concluded that examiners are preparing and
monitoring DOR in accordance with guidance. Our conclusion is based on examiner-prepared
documentation we reviewed during our two DOR sample reviews as well as discussions with
NCUA staff.

             Process to Track Deficiencies Identified in DOR during Examinations

We concluded that NCUA has a process in place for examiners to track deficiencies identified in
DOR. We based our conclusion upon our discussion with NCUA staff, review of NCUA
guidance, and review of examiner-prepared documentation related to DOR in our two sample
reviews.

Chapter 1 of the Examiners Guide provides guidance to examiners for reviewing areas
containing the most risk for an individual credit union. The Guide also emphasizes the need for
on-going risk-focused supervision as an integral part of the RFE process, in order to resolve
current problems and avoid future ones. The RFE approach requires scope development through
a process involving recommendations from the prior examination and supervision contacts.
District examiners must provide a credit union the attention it needs to identify and reduce risk
and to fully resolve problems. After analyzing the credit union’s operation, the examiner makes
recommendations for action based on conclusions reached and final risk assessments. The
recommendations address what the credit union should do to correct its problems. Examiners
use the DOR to outline plans and agreements reached to reduce areas of unacceptable risk. An
area of unacceptable risk is one for which credit union management does not have the proper
structure for identifying, measuring, monitoring, controlling, and reporting risk. In addition to
the DOR, an examiner prepares a contact information report. The effectiveness of the contact
information reports depends on the development and communication of proper resolutions for
the risk and problems identified during both the scope development and the examination.
Subsequently, regional office Division of Supervision analysts review certain contact
information reports and determine if the DOR contains reasonable, effective, and timely
corrective action plans. In addition, the supervisory examiner for each examiner will evaluate
the timeliness and effectiveness of the report solutions.

NCUA implemented an AIRES 2005 system update as a rolling release based on examiner
training in the third and fourth quarters of 2005 to be effective during 2006 examination and
supervision contacts. The update included a national DOR tracking module including the on-line
Exam Management Console (Console). The Console makes readily available to users various
information including DOR for specific credit unions. Currently, system users such as regional
offices can generate self-designed tracking reports for issues such as unresolved problem

                                                5

codes/DOR for various risk areas and risk factors using Access Queries. Moreover, the agency
updated AIRES 2005 in December 2006, adding a new navigation pull down menu to allow for
viewing of historical information in the Exam Management Console, Scope, DOR, and
Compliance Violations categories. In addition, NCUA is in the process of developing and
testing several DOR monitoring reports that will be available for use at all levels of the agency.
It is anticipated the additional reports will be implemented the latter part of 2007. The reports
were not reviewed during this work.

                          Follow-up on Deficiencies Identified in DOR

We concluded that NCUA has a process in place to follow-up on deficiencies identified in DOR.
We based this conclusion upon our review of examiner-prepared documentation for supervision
contacts for a sample of 25 open DOR at FCUs. We selected our judgmental sample from
information provided by E&I on January 31, 2007, that showed a total of 3,884 FCUs in all five
NCUA regions--with one or more open DOR.

The purpose of the sample review was to determine from a broad cross-section of FCUs the
number of DOR still outstanding; if progress being made to resolve the DOR was on track; and
the number of DOR deemed not on track for timely completion. We found that all 25 credit
unions were on track to resolve the DOR identified deficiency in a timely manner. However, we
found in discussion with staff and during our sample review that DOR were most often updated
when examination contacts and supervision contacts exceeded 24 hours of charged review time.
On-site contacts taking more than 8 hours and less than 24 hours could result in not all DOR
being reviewed and updated unless the contact was for that specific risk area. Finally, we found
that short time supervision contacts were usually reserved to address specific problems.

Examination documentation we reviewed for the sample included the Examination Management
Console online, the old/new DOR, Problem Report, and Confidential Section or Executive
Summary section of the contact report. Our sample represented five credit unions for each of the
five NCUA regions. The average size of total shares for the sampled credit unions was $27
million, with the largest credit union having $205 million in shares and the smallest credit union
having $400 thousand in shares. The sample credit union composite CAMEL codes included: 2
Code 1 FCUs; 10 Code 2 FCUs; 6 Code 3 FCUs; 6 Code 4 FCUs; and 1 Code 5 FCU. The
sample credit unions had as few as 1 DOR, and as many as 67 DOR, with the average number
being 13. The most frequently identified risk in our sample was credit risk representing 60
percent of the 25 DOR sample. The second most identified risk in our sample was transaction
risk representing 20 percent of the sample.


               Follow-up and Resolution of DOR Completed in a Timely Manner.

We concluded that NCUA does have a process to ensure that follow-up and resolution of
deficiencies documented in the DOR are completed in a timely manner. This conclusion is
based upon our review of examiner-prepared documentation of contacts for a sample 25 closed
DOR during the fourth quarter 2006 (contacts with start dates from October 1, 2006 through
December 31, 2006). We selected our judgmental sample from information E & I provided to us

                                                 6

on February 16, 2007. The information indicated a total of 1,028 FCUs in all five NCUA
regions with at least one closed DOR for the period selected.

The purpose of the sample review was to determine the DOR anticipated resolution date; to
determine if the credit union met the DOR resolution date; and to determine the number of
months between problem identification and closure of the DOR. Examination documentation we
reviewed included, when available, the Examination Console on-line, Old and New DOR,
Problem Report, and Confidential Section/Executive Summary Section of the examination or
supervision contact report. We found that all 25 sample DOR had documented anticipated
resolution dates. Twenty three of the 25 DOR were resolved by the anticipated resolution dates.
Moreover, we found that at the time of our review one DOR was classified as no longer
applicable, and one DOR was ultimately closed, although not within the anticipated resolution
date. We calculated the number of months between the problem identification date and the
indicated DOR resolution date. The average time in months for sample DOR resolution was 10
months, with four of the five regions averaging four to seven months and one region averaging
27 months. In a few instances there appeared to be a conflict between the Examination Console
on-line information and available supervision contact work papers (particularly off-site Code 27,
and low hour Code 22) uploaded to the AIRES system, with on-line indicating DOR resolution.
However available AIRES uploaded documentation did not support that information. We were
informed by E&I staff that in some instances supervision contacts require limited documentation.
In the instances of examinations and higher hour supervision contacts (supervision contacts in
excess of 24 hours) adequate documentation was available and we could determine the timely
and adequate closure of DOR for our sample.




                                               7

APPENDIX A – MANAGEMENT COMMENTS 





                8

